INACTIVE OBLIGATIONS
Federal Aviation Administration

 Report Number: FI-2005-044
     January 31, 2005
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of                                                  Date:    January 31, 2005
           Inactive Obligations, FAA
           FI-2005-044
  From:    Alexis M. Stefani                                                            Reply to
                                                                                        Attn. of:   JA-20
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Aviation Administrator

           This report presents the results of our audit of inactive obligations at the Federal
           Aviation Administration (FAA). An “obligation” represents a liability that is
           created when an agency enters into a binding legal agreement, such as a contract.

           The head of each agency is required to certify annually to the Department of the
           Treasury that obligated amounts are accurate and continue to represent valid
           liabilities. When obligations are no longer needed or exceed estimated needs, the
           agency should deobligate the unneeded amounts and reapply them to other
           projects. In most cases, once the money is appropriated, FAA has up to 8 years to
           spend it. Otherwise, unused funds are returned to the U.S. Treasury and are no
           longer available to support FAA’s mission.

           The Aviation Trust Fund supports FAA’s Facilities and Equipment (F&E) and
           Research, Engineering and Development (RE&D) programs. These programs are
           critical for increasing the capacity, efficiency, safety, and security of the National
           Airspace System. In today’s tight budget environment, it is important to ensure
           that all funds are used efficiently and that unneeded obligations are not allowed to
           sit idle, as this leaves less money available for other projects.

           In fiscal year (FY) 1999, FY 2000, and FY 2002, we reported a total of
           $241 million in unneeded obligations in FAA’s accounting records.1 In response
           to those reports, FAA acknowledged the need to strengthen its funds management

           1
               OIG Report Number FE-1999-131, “Inactive Obligations, DOT,” September 27, 1999; OIG Report Number FI-
               2000-125, “Inactive Obligations on Contracts, DOT,” September 25, 2000; and OIG Report Number FI-2002-082,
               “Audit of Financial Statements for Fiscal Years 2001 and 2000, FAA,” February 27, 2002. Reports can be found on
               our website: www.oig.dot.gov.
                                                                                  2


efforts and took corrective actions. Those actions included implementing an
Agency-wide policy requiring quarterly reviews of all obligations greater than
$5 million, inactive obligations greater than $1.5 million with no expenditures for
18 months, and inactive obligations from $500,000 to $1.5 million with no
expenditures for 30 months.
This report assesses the effectiveness of FAA’s efforts to reduce the number of
unneeded obligations in response to our prior recommendations. Our audit
objective was to determine whether FAA’s inactive obligations represent valid
financial liabilities or can be used on other projects. We performed the audit in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.
Responsibility for managing programs and associated contracts at FAA is shared
by two organizations. The Office of the Chief Operating Officer of the Air Traffic
Organization is responsible for managing programs and associated contracts
awarded by FAA Headquarters and the William J. Hughes Technical Center. The
Office of the Assistant Administrator for Region and Center Operations has
responsibility for managing programs and associated contracts in FAA’s nine
regions and the Mike Monroney Aeronautical Center. This audit reviewed
inactive obligations for programs and contracts administered by Headquarters and
the two operational centers. We also reviewed inactive obligations for contracts at
the FAA Eastern Region.
FAA accounting records showed about $2.1 billion of contract-related obligations
associated with FAA’s F&E and RE&D programs on December 31, 2002. We
identified 3,705 obligations, totaling $117 million, with no activity within
18 months. Consistent with our prior audits, we defined inactive obligations as
those with no expenditures within an 18-month period. We selected a judgmental
sample of 878 inactive obligations, valued at $81 million, to review. Our audit
scope and methodology are described in Exhibit A.

RESULTS IN BRIEF
FAA needs to do more to ensure unneeded funds are identified and freed up for
use on active projects. Considering budgetary constraints and significant air
traffic modernization needs, it is critical that FAA implements an effective process
to review inactive obligations. The idle amounts of unneeded obligations can be
deobligated and used to cover expenditures on existing active contracts or to
finance new contracts.
Yet of the $81 million in inactive obligations reviewed, we identified $35 million
that was unneeded or about 43 percent of the total amount reviewed. Having
$35 million in unneeded obligations should be a matter of concern to FAA
                                                                                                                       3


management. Also, during our review, FAA officials claimed much of the
remaining $46 million (57 percent) of the inactive obligations as still needed, but
these claims were not supported with adequate documentation. Accordingly,
FAA’s Chief Financial Officer should require that a team of financial managers,
program officials, and contracting officers scrub the $46 million of inactive
obligations to determine whether additional funds should be deobligated.
At the time of our November 17, 2004 draft report, FAA agreed that about
$21 million of the $35 million that we had identified was not needed, and FAA
had deobligated the funds. In its December 15, 2004 response to our draft report,
FAA agreed to deobligate the remaining $14 million since it could not document
that these obligations represented valid liabilities as required in Treasury
guidance.2 FAA had been still researching the need for the $14 million at the time
of our draft report.
The amounts being freed up as a result of our review were for contracts and
interagency agreements that were completed or canceled as long as 20 years ago.
Most of these contracts3 were never closed, and unused obligations were idle for
years. FAA is in the process of reusing these funds or returning them to Treasury.
The following are examples of the $35 million that FAA agreed to deoligate.

      • About $1.7 million was obligated for an interagency agreement with the
        National Oceanic and Atmospheric Administration in September 2000, but
        no expenditures were made against this obligation. In response to our
        review, FAA deobligated these funds.

      • An obligation made in November 1991 had its last expenditure in August
        1992. FAA officials at the Technical Center were of the opinion that the
        project was being managed by Headquarters. Ultimately, FAA officials
        agreed that the remaining obligated balance of about $1.2 million was not
        needed and deobligated the funds to use on other projects.4 The funds were
        idle for over 10 years.

      • An obligation totaling $858,952 was made in August 1998 associated with
        a contract with Delta Airlines. No expenditures have been made for this
2
    Annual Treasury Financial Management Bulletins, including Bulletin No. 2004-005, Yearend Closing, provide that
    agencies that have not reviewed their unliquidated obligations during the year must do so before yearend closing.
    This ensures agencies properly record transactions meeting the criteria of valid obligations set forth in Title 31
    United States Code (U.S.C.), Section 1501. Agencies are required to retain work papers and records on verifications
    to support future audits. Additionally, 31 U.S.C. 1501 states that obligations shall be recorded only when supported
    by documentary evidence. According to 31 U.S.C. 1108, the head of an agency shall submit an annual certification,
    supported by records, showing compliance with Section 1501.
3
    We reviewed FAA contracts, purchase orders, and interagency and rental agreements. In this report, the term
    “contracts” will refer to all of these types of legal agreements.
4
    Because this obligation was associated with an appropriation that does not expire, the funds can be reused on another
    project.
                                                                                    4


       obligation. FAA officials were unable to locate the contract file, and
       information was unavailable because the contract was no longer assigned to
       a contracting officer at the time of our draft report.

The unneeded obligations identified in this review were allowed to sit idle for
years for various reasons.

   • Quarterly reviews of inactive obligations were either not performed or
     inadequately completed. Financial managers, program officials, and
     contracting officers were not adequately coordinating the review process to
     determine whether inactive obligations were still needed.

   • Financial managers, program officials, and contracting officers were not
     held accountable for reviewing inactive obligations. For example,
     performance standards for these officials did not include requirements to
     review inactive obligations.

   • FAA’s policy does not require a review of inactive obligations with
     balances of less than $500,000. We included inactive obligations of less
     than $500,000 in our review to determine whether the policy needs to be
     adjusted, because about 68 percent of FAA’s inactive obligations on F&E
     and RE&D accounts (about $79 million of $117 million) fell into that
     category. In fact, of the $35 million in unneeded obligations that FAA
     agreed to deobligate, about $24 million was for projects with inactive
     obligations of less than $500,000.

In addition to deobligating the entire $35 million of idle obligations identified, we
are recommending that FAA revise its policy for reviewing inactive obligations to
ensure that the review is coordinated among financial managers, program officials,
and contracting officers. Best practices should be developed to perform these
reviews and should include procedures to: (1) maintain a database that identifies
the program official and contracting officer responsible for each inactive
obligation; (2) require that financial managers periodically furnish lists of inactive
obligations to program officials and contracting officers; (3) require that program
officials research the need for each inactive obligation; (4) require that contracting
officers close contracts and deobligate unneeded funds when notified that
performance is completed; (5) require that contracting officers contact responsible
program officials when contractual performance periods are completed to
determine whether inactive obligations are still needed; and (6) require that
financial managers scrub inactive obligations when program officials indicate that
the obligations are still needed without providing support. We are also
recommending that performance standards for financial managers, program
officials, and contracting officers be modified to require that reviews of inactive
                                                                                                               5


obligations be completed in accordance with FAA’s policy and that FAA revise its
policy to periodically review inactive obligations of less than $500,000.

In its December 15, 2004 response to our draft report, FAA agreed with or
provided an acceptable alternative action for our five recommendations (see
Appendix).      FAA indicated specific actions it plans to take for each
recommendation. However, FAA’s response is vague when addressing our
recommendation to modify its policy to annually review the large volume of idle
obligations of less than $500,000 and lacks a target completion date. In its
response to our Audit Report on FAA’s Financial Statements for FY 2001 and
FY 2000,5 FAA agreed to a similar recommendation to revise its procedures to
lower its threshold for annually reviewing inactive obligations to $100,000 from
$500,000. However, the recommendation was not implemented. Additionally,
FAA has not provided target completion dates for recommendations requiring that
FAA identify best practices for reviewing inactive obligations and modify
performance standards for financial managers, program officials, and contracting
officers to ensure adequate reviews are performed.
Therefore, we are requesting that within 30 days FAA provide more details on
how it intends to modify its policy to review inactive obligations of less than
$500,000 and timeframes to implement that recommendation and the
recommendations to identify best practices for completing reviews and modify
performance standards to ensure adequate reviews.

FINDING AND RECOMMENDATIONS
We issued audit reports in FY 1999, FY 2000, and FY 2002 that identified a total
of $241 million of unneeded obligations at FAA. The results of our prior reviews
are summarized in Exhibit B. In response to those reports, FAA acknowledged
the need to strengthen its funds management efforts and took action to address the
problems. Despite FAA’s efforts, a significant number of unneeded obligations
still exist, indicating that more aggressive corrective action is needed. We
reviewed $81 million of inactive obligations and identified $35 million, or
43 percent of the amount reviewed, that no longer represented valid financial
liabilities. The results of our review are summarized in Table 1. A detailed
summary of our review of inactive obligations stratified by dollar range is in
Exhibit C.




5
    OIG Report Number FI-2002-082, “Financial Statements for Fiscal Years 2001 and 2000,” February 27, 2002.
                                                                                  6


Table 1. Unneeded Inactive Obligations as of December 31, 2002
     Inactive            Samples Reviewed                Unneeded Obligations
    Obligation
     Balances         Number          Amount           Number           Amount
                                       ($000)                            ($000)
  $500,000 and
                           32          $38,658              13          $11,132
  Greater
  Less Than
                          846          $41,931             640          $23,712
  $500,000
   Total                  878          $80,589             653          $34,844


 Although our review of inactive obligations concentrated on FAA Headquarters,
 the William J. Hughes Technical Center, the Mike Monroney Aeronautical Center,
 and the FAA Eastern Region, poor management of inactive obligations is a
 problem throughout FAA’s regions. For example, we recently completed a review
 of the administration and oversight of contracts issued by three FAA regions.
 Although the purpose of the review was not to specifically assess inactive
 obligations, we identified about $233,000 of obligations associated with inactive
 contracts that could have been put to better use on other programs.
 In this audit, we found that over $11 million of inactive obligations with balances
 of $500,000 or more and $24 million of inactive obligations with balances of less
 than $500,000 were unneeded. FAA policy does not require reviews of inactive
 obligations of less than $500,000, yet about 68 percent (about $79 million of
 $117 million) of all inactive obligations for F&E and RE&D accounts, as of
 December 31, 2002, were of less than $500,000.
 FAA agreed that about $21 million of the $35 million we identified was not
 needed and has deobligated the funds. FAA had been researching the need for the
 remaining $14 million of inactive obligations for over a year. In its December 15,
 2004 response to our draft report, FAA agreed with our recommendation to
 deobligate the remaining $14 million of inactive obligations since it could not
 document that these obligations represented valid liabilities as required in
 Treasury guidance. A detailed summary of amounts that FAA deobligated and
 those it was researching is presented in Table 2. A detailed summary of amounts
 deobligated and being researched by dollar ranges of inactive obligations reviewed
 is in Exhibit D.
                                                                                  7


     Table 2. Summary of Unneeded Inactive Obligations,*
            and Amounts FAA Agreed To Deobligate
                  Amounts FAA Agreed to       Amounts FAA Agreed to       Total
Remaining         Deobligate at the Time of      Deobligate in Its     Amount of
Obligation           Our Draft Report          Response to Our Draft   Unneeded
 Balances                                            Report             Inactive
                   Number        Amount        Number       Amount     Obligations
                                  ($000)                     ($000)      ($000)
Obligations
of $500,000                6      $5,841          7         $5,291      $11,132
and Greater
 Obligations
 of Less
                       538       $14,841        102         $8,871      $23,712
 Than
 $500,000
  Total                544       $20,682        109        $14,162      $34,844

*As of December 31, 2002


Unneeded Amounts Are Being Deobligated
The $35 million that FAA agreed to deobligate was for contracts that were
completed or canceled as long as 20 years ago. The obligations remained idle for
years because the contracts were never closed. FAA officials were able to find
contract documentation or coordinate with vendors to conclude that the inactive
balances were no longer needed.
The following are examples of the $21 million of unneeded obligations that FAA
deobligated by the time of our November 17, 2004 draft report.

    • A project from the early 1990s had an obligation of $1.5 million. At the
      time of our audit, about $300,000 had been spent. When we asked about
      the need for the remaining $1.2 million, FAA deobligated it.

    • An obligation of $1.7 million was created in September 2000 with the
      National Oceanic and Atmospheric Administration for Automated Surface
      Observing Systems services, equipment, and maintenance at airports and
      other surface weather observing sites nationwide. No expenditures had
      been made against this obligation, and FAA deobligated the funds.
FAA had been researching the need for the remaining $14 million of obligations
that we reported as being unneeded since we began the audit. Accordingly, we
                                                                                                                        8


recommended that FAA deobligate these amounts in our draft report. In its
response to our recommendation FAA agreed to deobligate the $14 million.
At the time of our draft report, FAA was unable to locate the files for 10 contracts
with inactive obligations totaling about $486,000. Additionally, 133 inactive
obligations totaling about $12.5 million were associated with contracts that were
no longer assigned to contracting officers. Program officials responsible for
managing these obligations were not identified in most instances. Contracting
officers or program officials changed positions or retired without being replaced,
or contracts were completed but not closed. As a result, contracts were no longer
being actively managed, and FAA was unable to obtain sufficient information to
determine whether the inactive obligations were still valid.6 The following are
examples of obligations that FAA was researching at the time of our draft report
but have agreed to deobligate in its response.

      • In September 1998, FAA obligated $1.5 million under an agreement with
        the National Oceanic and Atmospheric Administration for personnel,
        equipment, and digital charting for FAA’s Digital Bright Radar Indicator
        Tower Equipment (BRITE). No expenditures have been made since
        September 2000, and an unexpended balance of about $1.1 million remains.

      • In November 1999, FAA obligated $900,000 under a contract with Unitech
        for engineering and technical support services related to
        telecommunications. Since December 1999, no expenditures have been
        made, and an unexpended balance of about $800,000 remains. At the time
        of our audit, there was no contracting officer assigned to manage the
        contract.

      • In April 1993, FAA obligated $1.3 million for an agreement with the
        National Aeronautics and Space Administration’s Ames Research Center.
        Since December 1999, no expenditures have been made. An unused
        balance of about $650,000 remains. The interagency agreement is not
        being actively managed.

Inactive Obligations With Balances of Less Than $500,000
As of December 31, 2002, FAA had 3,6737 obligations totaling about $79 million
that were of less than $500,000 with no payment activity for at least 18 months.

6
    Based on findings and recommendations in prior audits, FAA has taken action to improve its contracting practices.
    For example, FAA has closed out about $4.7 billion in completed cost-reimbursable contracts, performed a
    bottom-up review of its contract management practices, and implemented a centralized filing system. Therefore, we
    are not making additional recommendations for contract management practices at this time.
7
    The initial universe of inactive obligations for contracts was 3,705. Of these, 3,673 were for obligations of less than
    $500,000. From the universe of 3,705, we judgmentally selected 878 inactive obligations for this audit. Of these,
    846 were for obligations of less than $500,000.
                                                                                  9


These obligations represented about 68 percent of FAA’s total inactive obligations
of about $117 million. We reviewed 846 of the inactive obligations of less than
$500,000, totaling about $42 million, to determine how many were unneeded. We
found that 640 obligations totaling about $24 million, or about 57 percent of the
amount reviewed, were unneeded. FAA deobligated about $15 million at the time
of our draft report and has agreed to deobligate the remaining $9 million in its
response to our draft report (see Table 2).
Based on our review, FAA agreed to deobligate the following examples of
inactive obligations of less than $500,000.

   • In FY 1985, FAA created three obligations totaling about $819,000 for
     training and software programming. None of the individual obligations
     exceeded $500,000.     No money was ever expended against these
     obligations. FAA has agreed to deobligate these funds.

   • In FY 2000, FAA created an obligation for about $368,000 under a real
     estate lease agreement for a major air traffic control facility. FAA
     misidentified accounting information and had to obligate new funds to
     cover the expenditure, leaving the original obligation untouched. There
     was no contracting officer assigned to manage the contract. FAA has
     deobligated these funds.

   • In June 1996, FAA obligated $1,000,000 for a contract with the Jet
     Propulsion Lab at the California Institute of Technology. The last
     expenditure under this obligation occurred in 1998. FAA had no
     contracting officer assigned to manage the contract, which had been
     completed for over 4 years with a remaining inactive balance of almost
     $19,000 at the time of our review. FAA agreed the funds were not needed
     and deobligated them.

   • FAA obligated about $163,000 for a contract in September 1999. The last
     expenditure was made in May 2001, and the remaining obligation is about
     $102,000. The contract was no longer assigned to a contracting officer, and
     the FAA program officials did not notify the original contracting officer
     that the contract had been completed.

Reasons Unneeded Inactive Obligations Were Not Identified
We identified three primary reasons why unneeded inactive obligations were not
identified. First, the quarterly reviews of inactive obligations were either not
performed or were inadequately completed. Financial managers, program
officials, and contracting officers were not appropriately coordinating to determine
whether inactive obligations were still needed. Second, performance management
techniques were not used to hold financial managers, program officials, and
                                                                                                                    10


contracting officers accountable for reviewing inactive obligations. Third, FAA’s
policy does not require a review of inactive obligations with balances of less than
$500,000.

Required Reviews Were Not Performed or Were Inadequately
Completed
FAA’s policy on reviewing inactive obligations places the burden for conducting
the reviews on financial managers. However, financial managers need input from
contracting officers and program officials to determine whether obligations are
still needed.
Financial managers must review obligation and payment records to identify
inactive obligations and provide program officials and contracting officers with
lists of inactive obligations. Program officials, responsible for requesting goods
and services, must determine whether the goods and services have been delivered
and whether significant additional amounts will be billed. This information must
be passed to contracting officers, who are responsible for closing the contracts and
deobligating unneeded funds.
We found a breakdown in coordination of reviews between financial managers,
program officials, and contracting officers. The reviews were not being
adequately performed by any of the groups. Financial managers did not ensure
that all program officials and contracting officers received lists of inactive
obligations for contracts. Also, financial managers did not sufficiently follow up
to obtain responses on the status and need for inactive obligations. Contracting
officers and program officials were not consistently obtaining enough information
to demonstrate whether the obligation was still valid. Over $5 million of the
$11 million of unneeded obligations for inactive projects of $500,000 or more was
for projects that were still being researched after more than a year.
The program official8 responsible for managing the obligation plays a key role in
efforts to identify unneeded obligations. The program official must notify the
contracting officer as soon as goods and services are accepted so that the
contracting officer can take steps to close the contract and deobligate the
remaining funds. If the funds are deobligated promptly, they can be used to
finance new projects or used to pay for expenditures or cost overruns on other
projects. However, program officials responsible for managing contractual
obligations were not coordinating with contracting officers, and, as a result, funds
were not being used effectively.

8
    A business manager assigned to each program is generally responsible for managing obligations. The business
    manager maintains records to ensure that sufficient funds are available to cover expenditures under existing and new
    contracts and identifies obligations that are no longer needed. The business manager should notify contracting
    officers when work is completed or canceled so that unused obligations can be deobligated.
                                                                                  11


Contracting officers have a responsibility to manage contracts until goods and
services are accepted and the contract is closed. Any remaining obligations can
then be deobligated for use on other projects. Many contracts were old and were
no longer being managed. Although the contracts had been completed or
canceled, they were never closed. For example, we found that 133 obligations
associated with about $12.5 million of contracts had been inactive and were no
longer assigned to contracting officers. FAA needed considerable time to locate
the files and even then, in many cases, it did not have sufficient information to
determine whether the remaining obligation was still needed. FAA could not find
10 contract files associated with about $486,000 of the obligations being
researched.
FAA must modify its policy and develop best practices for reviewing inactive
obligations. The best practices should include procedures to: (1) maintain a
database that identifies the program official and contracting officer responsible for
each inactive obligation; (2) require that financial managers periodically furnish
lists of inactive obligations to program officials and contracting officers;
(3) require that program officials research the need for each inactive obligation,
document the results, and notify financial managers and contracting officers of
unneeded obligations; (4) require that contracting officers close contracts and
deobligate unneeded funds when notified that performance is completed;
(5) require that contracting officers contact responsible program officials when
contractual performance periods are completed to determine whether inactive
obligations are still needed; and (6) require that financial managers scrub inactive
obligations when program officials indicate that the obligations are still needed
without providing support.

Performance Management Techniques Are Not Used
FAA financial managers, program officials, and contracting officers need to be
held accountable for ensuring that unneeded obligations are identified in a timely
manner and deobligated and used elsewhere. Collectively they know when
contractual performance is completed and whether excess obligations exist that
should be deobligated. FAA can improve its financial management practices by
making the determination of valid obligation amounts a required management
practice. Financial managers, program officials, and contracting officers who are
responsible for requesting goods and services and managing obligation balances
need to be held accountable by including provisions in their performance
standards for managing funds and deobligating unneeded obligations.

Reviews of Inactive Obligations of Less Than $500,000 Not Required
FAA policy does not require any review of inactive obligations that are valued at
less than $500,000. Overall, we found that a significant number of unneeded
                                                                                12


inactive obligations with balances of less than $500,000 existed at the accounting
offices visited simply because they are not periodically reviewed. Treasury
guidance requires that agencies review and certify the validity of all obligations,
so obligations of less than $500,000 should be reviewed to ensure they are valid.
Most of FAA’s inactive obligations were of less than $500,000 (3,673 of 3,705).
About 68 percent of the total value of all inactive obligations ($79 million of
$117 million) was for inactive obligations of less than $500,000. We reviewed a
judgmental sample of 878 inactive obligations, of which 846 were for inactive
obligations of less than $500,000. Of about $42 million associated with
obligations of less than $500,000 reviewed, we identified about $24 million
(57 percent) in unneeded obligations that should be put to use on other projects.
We previously recommended that FAA amend its policy to begin reviewing
inactive obligations under $500,000. In our Audit Report on FAA’s Financial
Statements for FYs 2001 and 2000, we reviewed inactive obligations of $100,000
or more and identified about $45 million of inactive obligations that were no
longer needed. About $23 million of the unneeded amount was for inactive
obligations with balances of $100,000 or more but less than $500,000. As a result
of the significant identified unneeded obligations with balances less than
$500,000, we recommended that FAA amend its policy to lower its threshold for
reviewing inactive obligations to $100,000 from $500,000. Although FAA
concurred with the recommendation, FAA did not amend its policy to implement
the recommendation.


RECOMMENDATIONS
FAA had already deobligated $21 million of inactive obligations by the time we
issued our draft report. Additionally, FAA has agreed to our recommendation to
deobligate the remaining $14 million that we identified as being unneeded. We
recommend that the FAA Administrator direct the Chief Operating Officer of the
Air Traffic Organization, Assistant Administrator for Region and Center
Operations, and the Chief Financial Officer to develop and implement
management controls to:

   1. Ensure that quarterly reviews and documented annual reviews of inactive
      obligations are performed as required by FAA’s policy.

   2. Identify best practices for reviewing inactive obligations and require that
      financial managers, program officials, and contracting officers use these
      practices in their reviews.
                                                                               13


   3. Modify performance standards for financial managers, program officials,
      and contracting officers to require that adequate reviews of inactive
      obligations be performed in accordance with FAA policy.

   4. Revise FAA’s policy to ensure that inactive obligations of less than
      $500,000 are reviewed annually.

   5. Deobligate the $14 million of inactive obligations covered in this review
      that are still being researched.

MANAGEMENT COMMENTS AND OIG RESPONSE
We provided FAA with a draft of this report on November 17, 2004, and FAA
provided a written response on December 15, 2004.                FAA’s Assistant
Administrator for Financial Services and Chief Financial Officer agreed with four
of five recommendations and partially concurred with one recommendation (see
Appendix). For the recommendation that received a partial concurrence, FAA’s
proposed alternative planned actions meet the intent of our recommendation.

Specific comments by the Assistant Administrator and FAA’s planned actions on
our recommendations are provided below.
Recommendation 1: FAA concurred. FAA stated that it will develop a
coordinated process to be used by financial managers, contracting officers, and
program managers to oversee inactive obligations. FAA is currently testing a pilot
process in two regions, which includes the establishment of a new report to
facilitate the identification and research of obligations. This pilot will be the
foundation of the corporate approach that will be implemented in FAA during
FY 2005. Included in this approach is a comprehensive update to the policy,
quarterly and annual reviews, and use of performance measures to monitor overall
performance.
OIG Response: FAA’s planned actions meet the intent of our recommendation,
and the proposed FY 2005 timetable is acceptable.
Recommendation 2: FAA concurred. FAA stated it plans to establish
performance measures to monitor the number and dollar amount of inactive
obligations reviewed and deobligated. This information will be reported to the
Administrator and at FAA Management Board meetings on a periodic basis.
Additionally, FAA plans to have the Office of Financial Services research other
best practices to determine what controls can be implemented to significantly
reduce inactive obligations.
                                                                               14


OIG Response: FAA’s planned actions meet the intent of our recommendation.
We request that FAA provide us with a timeframe with milestones for completing
these actions.
Recommendation 3: FAA partially concurred. FAA stated that implementing a
single performance standard for every FAA employee involved with an obligation
would not guarantee a reduction in inactive obligations and was therefore not the
best approach. FAA agreed to use performance standards when warranted,
considering factors such as the employee’s prior response to inactive obligations
and the volume and the dollar amount of the obligations. FAA stated it will be
more proactive in managing the issue of inactive obligations rather than
implementing a wholesale performance standard.
OIG Response: FAA’s proposed alternative procedures meet the intent of our
recommendation. However, we request that FAA provide us with a timeframe for
completing the proposed actions.
Recommendation 4: FAA concurred. FAA stated that it will reassess the current
policy to determine how best to handle the large volume of low-dollar inactive
obligations.
OIG Response: Although FAA agrees with the recommendation, its response
does not indicate whether it intends to revise its policy to ensure that inactive
obligations of less than $500,000 are reviewed annually. It indicates that it will
assess how to review these obligations. Therefore, we are requesting that FAA
provide more details on how it plans to modify its policy to review the low-dollar
inactive obligations. We are also requesting that FAA provide us with a
timeframe for implementing the planned action.
Recommendation 5: FAA concurred. FAA stated it will deobligate the entire
$14 million no later than April 30, 2005.
OIG Response: FAA’s planned action is in agreement with our recommendation.

ACTION REQUIRED
Actions taken and planned by FAA are reasonable, and FAA’s alternative course
of action for Recommendation 3 is acceptable. In accordance with Department of
Transportation Order 8000.1C, we request additional comments and a completion
target date for Recommendation 4 and completion target dates for
Recommendations 2 and 3 within 30 days.
                                                                           15


We appreciate the cooperation and assistance of FAA’s representatives. If you
have any questions concerning this report, please call me at (202) 366-1992 or
Theodore Alves, Assistant Inspector General for Financial and Information
Technology Audits, at (202) 366-1496.

                                          #
cc: FAA Deputy Administrator
    Air Traffic Chief Operating Officer
    FAA Chief of Staff
    Anthony Williams, ABU-100
                                                                                    16




EXHIBIT A. SCOPE AND METHODOLOGY
FAA reported a balance of contract-related F&E and RE&D obligations in its
accounting books and records of about $2.1 billion on December 31, 2002. Using
computer inquiries into the Departmental Accounting and Financial Information
System (DAFIS), we identified a universe of 3,705 contract-related inactive
obligations totaling $117 million. We defined an inactive obligation as an
obligation having no activity for 18 months as of December 31, 2002.

We verified the reliability of obligation balances and expenditures in DAFIS for
FY 2001 and prior years in our annual audits of FAA’s financial statements. An
independent accounting firm, KPMG, verified the reliability of obligation balances
and expenditures in DAFIS in annual audits of FAA’s financial statements for
FY 2002 and FY 2003. We determined that the DAFIS transactions and
obligation balances were reliable based on the annual audit results. We also traced
obligation balances to contracts and expenditures to invoices and public vouchers
on a judgmental basis throughout our audit and found no exception with the
DAFIS balances and expenditure data.

The objective of the audit was to determine whether FAA’s inactive obligations
represented valid financial liabilities. To determine the validity of FAA’s inactive
obligations as recorded in DAFIS, we judgmentally selected 878 obligations
totaling $81 million from the 3,705 contract-related inactive obligations. We
stratified the judgmentally selected sample by dollar range. We selected
high-dollar inactive obligations of over $500,000 and inactive obligations between
$100,000 and $499,999. We also reviewed contract-related obligations under
$100,000. The reasons for this stratification follow.


 Obligation Amount           Stratification Rationale

                             To evaluate the effectiveness of carrying out current
 $500,000 and greater
                             FAA policy in identifying unneeded funds

                             To evaluate the continued need to implement our
 $100,000 to $499,999        prior audit recommendation to lower the review
                             threshold

                             To evaluate FAA’s compliance with Treasury
 Up to $100,000              guidance to review inactive obligations of less than
                             $100,000



Exhibit A. Scope and Methodology
                                                                                                             17


We visited the three FAA accounting offices with the largest number of high-
dollar and old contract-related obligations with no expenditures for 18 months as
of December 31, 2002. The three locations were FAA Headquarters in
Washington, DC; the William J. Hughes Technical Center in Atlantic City, NJ;
and the Mike Monroney Aeronautical Center in Oklahoma City, OK. We also
reviewed contract-related obligations in the FAA Eastern Region.

For the four locations visited, we requested that FAA financial managers provide
documentation to support that inactive obligations were still needed. We
interviewed contracting officers and program officials and reviewed obligating
documents, including contract files. We used DAFIS to validate that unneeded
funds had been deobligated and could be used on active projects or returned to
Treasury. We evaluated FAA’s policies and procedures for identifying unneeded
inactive obligations and deobligating unneeded amounts.

We have issued two reports1 with significant recommendations addressing a
material weakness that existed in FAA’s management of cost-reimbursable
contracts, primarily those awarded by FAA Headquarters and the William J.
Hughes Technical Center. FAA has taken significant actions to strengthen its
contract management, including dedicating $3 million for audits of 185 contracts,
completing a bottom-up review of its Headquarters’ contract management
function, and implementing a centralized system for filing contracts managed at
FAA Headquarters. We also recently issued a report on FAA’s management of
contracts at its regions,2 which recommended significant corrective actions.
Accordingly, we are not making recommendations to improve contract
management in this report.

We performed our audit from May 2003 through September 2004. The audit was
conducted in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.




1
    OIG Report Number FI-2002-092, “Oversight of Cost-Reimbursable Contracts, FAA”, May 8, 2002, and OIG
    Report Number FI-2004-031, “Report on Consolidated Financial Statements for Fiscal Years 2003 and 2002, DOT,”
    January 30, 2004.
2
    OIG Report Number AV-2004-094, “FAA’s Administration and Oversight of Regionally Issued Contracts,”
    September 28, 2004.


Exhibit A. Scope and Methodology
                                                                                 18




EXHIBIT B. PRIOR OIG REPORTS ADDRESSING
INACTIVE OBLIGATIONS
OIG Report Number             FE-1999-131,     “Inactive    Obligations,    DOT,”
September 27, 1999
We identified significant amounts of unneeded inactive obligations in several
DOT Operating Administrations, including FAA. For FAA, we reported
$179 million of unneeded funds that should be deobligated and reapplied to active
aviation projects. In response, FAA implemented an Agency-wide policy
requiring quarterly reviews of all inactive obligations (1) greater than $5 million,
(2) from $1.5 million to $5 million with no payment activity for 18 months, and
(3) from $500,000 to $1.5 million with no payment activity for 30 months.

OIG Report Number FI-2000-125, “Inactive Obligations on Contracts,
DOT,” September 25, 2000
We identified $17 million of unneeded funds on FAA’s capital investment
contracts that should be deobligated and applied to active projects. In response,
DOT agreed to provide Agency-wide guidance to contracting officers on
reviewing completed contracts to identify and deobligate unneeded funds.

OIG Report Number FI-2002-082, “Financial Statements for Fiscal Years
2001 and 2000, FAA,” February 27, 2002
During our audit of FAA’s FY 2001 financial statements, we identified
$45 million of unneeded inactive obligations. We advised FAA’s financial
managers that as a result of our findings, FAA should lower its review threshold
from $500,000 to $100,000 for projects with no payment activity for 30 months.
FAA agreed but did not implement the change.




Exhibit B. Prior OIG Reports Addressing Inactive Obligations
                                                                               19




EXHIBIT C. UNNEEDED INACTIVE OBLIGATIONS
STRATIFIED BY SIZE OF OBLIGATION*
                             Samples Reviewed          Unneeded Obligations
      Obligation
       Balances            Number       Amount        Number        Amount
                                         ($000)                      ($000)
    Greater than
                                5        $15,985          1           $1,658
    $1,500,000
    $500,000 to
                               27        $22,673         12           $9,474
    $1,500,000
      Subtotal of
      $500,000 and             32        $38,658         13          $11,132
      Greater
    $100,000 to
                              185        $35,902        109          $19,407
    $499,999
    $1,000 to
                                          $5,958                      $4,235
    $99,999                   348                       275
    Less than $1,000
                                                $71                      $70
                              313                       256
      Subtotal of
      Less Than               846        $41,931        640          $23,712
      $500,000
      Total                   878        $80,589        653          $34,844

*As of December 31, 2002




Exhibit C. Unneeded Inactive Obligations Stratified by Size of
Obligation
                                                                                      20




EXHIBIT D. UNNEEDED INACTIVE OBLIGATIONS:
DEOBLIGATED AND BEING RESEARCHED*
                       Amounts FAA Agreed      Amounts FAA Agreed to
     Obligation         to Deobligate at the   Deobligate in Its Response     Total
      Balances           Time of Our Draft       to Our Draft Report        Amount
                              Report                                         ($000)
                       Number       Amount     Number         Amount
                                     ($000)                    ($000)
  Greater than
                             1       $1,658         0               $0       $1,658
  $1,500,000
  $500,000 to
                             5       $4,183         7           $5,291       $9,474
  $1,500,000
   Subtotal of
   $500,000 and              6       $5,841         7           $5,291      $11,132
   Greater
  $100,000 to
  $499,999                  66     $11,349         43           $8,058      $19,407

  $1,000 to
                           233       $3,430        42             $805       $4,235
  $99,999
  Less than $1,000         239         $62         17               $8         $70
   Subtotal of
   Less Than               538     $14,841       102            $8,871      $23,712
   $500,000
   Total                   544     $20,682       109           $14,162      $34,844

*As of December 31, 2002




Exhibit D. Unneeded Inactive Obligations: Deobligated and Being
Researched
                                                                    21




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Terrence J. Letko                     Program Director

  Mary Smothers                         Project Manager

  Robert Anderson                       Senior Auditor

  Thomas Wiener                         Senior Management Analyst

  Brian Frist                           Management Analyst

  Jill Cottonaro                        Management Analyst

  Kathleen Huycke                       Editor

  Narja Hylton                          Auditor

  Allison Horkan                        Auditor




Exhibit E. Major Contributors to This Report
                                                                                       22




           APPENDIX. MANAGEMENT COMMENTS


                                                     Memorandum
Subject:   INFORMATION: Draft Report on the Audit of            Date:    DEC 15 2004
           Inactive Obligations, FAA


  From:    Assistant Administrator for Financial Services    Reply to
                                                             Attn. of:
             and Chief Financial Officer

    To:    Assistant Inspector General for Financial and
             Information Technology Audits

           As requested in your memorandum dated November 17, attached are the Federal
           Aviation Administration’s comments to each recommendation in the subject
           report.


           If you have questions or need further information, please contact Anthony
           Williams, Budget Policy Division, ABU-100. Mr. Williams can be reached at
           267-9000.




           Ramesh K. Punwani

           Attachment




           Appendix. Management Comments
                                                                                   23


          Federal Aviation Administration’s (FAA) Response to the
             Office of Inspector General’s Draft Report on the
                        Audit of Inactive Obligations

Recommendation 1: Ensure that quarterly reviews and documented
annual reviews of inactive obligations are performed as required by FAA’s
policy.

Response 1: Concur. The Office of Financial Services and Chief Financial
Officer, Chief Operating Officer of the Air Traffic Organization, and the Assistant
Administrator for Region and Center Operations will jointly develop a process to
be used by financial managers, contracting officers, and program managers to
oversee inactive obligations. FAA is currently testing a pilot process in two
regions in response to a recommendation in the audit on “Administration of
Regionally Issued Contracts.” This pilot includes the establishment of a new
DELPHI/PRISM report to facilitate identification and research of the obligations.
The pilot will serve as the foundation for the corporate approach that will be
implemented in FAA during fiscal year 2005. The approach will include a
comprehensive update to the policy, quarterly reviews, annual reviews, and the
use of performance measures to monitor overall performance.

Recommendation 2: Identify best practices for reviewing inactive obligations
and require that financial managers, program officials, and contracting officers
use these practices in their reviews.

Response 2: Concur. FAA will establish preliminary performance measures to
monitor the number and dollar amount of inactive obligations reviewed and/or
deobligated. This information will be reported to the Administrator and shared at
FAA Management Board meetings on a periodic basis. In addition, the Office of
Financial Services will research other best practices to determine what controls
can be put in place to significantly reduce inactive obligations, freeing money up
for other purposes.

Recommendation 3: Modify performance standards for financial managers,
program officials, and contracting officers to require that adequate reviews of
inactive obligation be performed in accordance with FAA policy.

Response 3: Partially concur. The establishment of a single performance
standard for every FAA employee that is involved with an obligation will not
guarantee a reduction in inactive obligations. FAA Management will use such a
standard when warranted, using factors such as the employee’s prior response
to inactive obligations, the volume of obligations, and the dollar amount of the
obligations. Organizational performance measures and FAA Management Board
attention have worked well in resolving other management issues. The FAA will
be more proactive in managing this issue rather than implement a wholesale
performance standard.


Appendix. Management Comments
                                                                               24



Recommendation 4: Revise FAA policy to ensure that inactive obligations of
less than $500,000 are reviewed annually.

Response 4: Concur. The FAA will revisit the current policy and determine how
best to handle the large volume of low dollar inactive obligations.

Recommendation 5: Deobligate the $14 million of inactive obligations covered
in this review that are still being researched.

Response 5: Concur. Program offices will be notified to issue purchase
requests in PRISM to deobligate funding on these inactive obligations. These
actions will be completed no later than April 30, 2005.




Appendix. Management Comments
